<html>
<title> - THE GULF COOPERATION COUNCIL: DEEPENING RIFTS AND EMERGING CHALLENGES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                     THE GULF COOPERATION COUNCIL: 
                DEEPENING RIFTS AND EMERGING CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 22, 2014

                               __________

                           Serial No. 113-155

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-021PDF                      WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida<greek-l>
LUKE MESSER, Indiana--5/20/14 
    noon deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida<greek-l>       JUAN VARGAS, California
TREY RADEL, Florida--resigned 1/27/  BRADLEY S. SCHNEIDER, Illinois
    14 deg.                          JOSEPH P. KENNEDY III, 
DOUG COLLINS, Georgia                    Massachusetts
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida<greek-l>        LOIS FRANKEL, Florida
LUKE MESSER, Indiana--5/20/14 
    noon deg.




























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

David Andrew Weinberg, Ph.D., senior fellow, Foundation for 
  Defense of Democracies.........................................     6
Mr. Simon Henderson, Baker fellow and director, Gulf and Energy 
  Policy Program, The Washington Institute for Near East Policy..    28
The Honorable Stephen A. Seche, senior analyst, Dentons US LLP 
  (former Ambassador of the United States to Yemen)..............    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

David Andrew Weinberg, Ph.D.: Prepared statement.................     8
Mr. Simon Henderson: Prepared statement..........................    30
The Honorable Stephen A. Seche: Prepared statement...............    37

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    58

 
                     THE GULF COOPERATION COUNCIL:
                      DEEPENING RIFTS AND EMERGING
                               CHALLENGES

                              ----------                              


                         THURSDAY, MAY 22, 2014

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
After recognizing myself and Ranking Member Deutch as soon as 
he comes in for 5 minutes each for our opening statements I 
will then recognize other members--thank you so much, 
gentlemen, for being here--seeking recognition for 1 minute.
    We will then hear from our witnesses and without objection, 
gentlemen, the witnesses' prepared statements will be made a 
part of the record.
    Members may have 5 days to insert statements and questions 
for the record subject to the length limitation in the rules. 
The Chair now recognizes herself for 5 minutes.
    Since the start of the Arab Spring, the dynamics of the 
political landscape in the Middle East and North Africa have 
undergone dramatic changes. Uprisings in many countries have 
led to a change in leadership, shifting the nature of what was 
already a fragile political insecurity balance in the region.
    Despite similar cultures, political systems and security 
concerns, the only real points of concurrence amongst the 
member states of the Gulf Cooperation Council (GCC) were on the 
need to maintain strong security ties with the United States 
and on the threat posed by Iran.
    This shift in dynamics has also added a strain on the 
relationship within the GCC, particularly as the nation's hotly 
disputed policy approaches to the conflict in Syria, the 
stability of Egypt and the Iranian nuclear issue.
    Some of these rifts were made very public earlier this year 
as the United Arab Emirates, Saudi Arabia and Bahrain all 
recalled their ambassadors to Qatar over the Qatari support for 
the Muslim Brotherhood.
    And while the GCC has reportedly smoothed over this feud, 
the fundamental differences are, clearly, too great to overcome 
and will certainly boil over in the near future. But the 
differences between the GCC member states regarding these 
issues haven't just strained relations within the council.
    They have greatly impacted our bilateral relations with 
each country. The administration's indecision in Syria and its 
misguided approach to the Iran nuclear issue have driven a deep 
wedge between us and some of our traditional regional allies 
and could potentially permanently damage those relationships 
which would then pose challenges to our national security 
interests.
    While some of these nations leave much to be desired in 
many aspects, ranging from their human rights records to their 
efforts in fighting local terrorist financing and the United 
States must continue to press those countries in addressing 
those issues, the members of the GCC are for now still key U.S. 
allies to many national and mutual security threats.
    It would be in the best security interest for the United 
States as well as the GCC members to develop and advance an 
integrated defense capability so that we can counter any 
threats in the region including an Iran that continues to 
advance its ballistic missile capabilities and still has the 
potential to create a nuclear weapon.
    But it is not just the idea of a nuclear-armed Iran that 
threatens us and our partners in the region but it is also 
Iran's role as the largest state sponsor of terror that must be 
defended against.
    Iran actively seeks to wage proxy wars and attacks against 
the United States, against our ally, the democratic Jewish 
state of Israel, and our U.S. national security interest in the 
region as well as attacks against several Middle East countries 
themselves.
    That is why I believe that the GCC countries must refrain 
from reaching closer ties with Iran, hold the line against this 
terrorist regime and abandon any ambition to deepen economic 
alliances with Tehran.
    Just this week it was announced that the emir of Kuwait 
would be visiting Iran at the end of the month and Saudi Arabia 
extended an invitation to the Iranian foreign minister to 
visit.
    None of us here need to be reminded of the foiled plot by 
the Iranians to assassinate the Saudi Ambassador to the U.S. 
right here in Washington, DC, to understand the lengths to 
which Tehran will go to try to shift the balance of power in 
the region in its favor.
    If we abandon our partners in the Gulf by continuing to 
pursue a bad nuclear deal with Iran that will leave intact its 
entire nuclear infrastructure and allow it to continue to 
enrich uranium, we will not only lose what little trust we have 
with the GCC states but we may open the door to an all-out arms 
race in the Middle East.
    After all, it was the United States who put pressure on all 
of these governments to support our efforts in sanctioning the 
Iranian regime and now they perceive the administration's zeal 
to reach a deal with Tehran as the U.S. selling them out to the 
Iranians, which will force their hands to cut their own deal 
with the regime in Iran.
    This could up the scales in the region and cause 
irreparable harm to U.S. national security interest and may 
even make the extremist problem worse if our partners lose 
faith in us and stop cooperating with us to counter this 
threat.
    The administration must do more to work with these partners 
to earn their trust back and it must abandon its current 
nuclear policy with Iran or run the risk of turning the entire 
region against us.
    With that, I am so pleased to yield to the ranking member, 
my good friend, Mr. Deutch, of Florida.
    Mr. Deutch. Thank you. Thank you, Madam Chairman. I am 
pleased that we are holding today's hearing to examine a region 
that plays such a critical role in the United States policy and 
security more broadly throughout the Middle East.
    In recent months, much has been made over the perceived 
rift between the GCC states and the United States, notably over 
the P5+1 negotiations with Iran, our policy in Syria and events 
in Egypt.
    I believe the U.S. and the Gulf share the same goals--a 
nuclear-free Iran, an end to Syrian conflict that does not 
leave Assad or dangerous terrorists in power and a stable 
prosperous Egypt.
    It should be clear to our Gulf partners that this Congress 
and this administration value the strong relationship. 
Secretary Kerry and other senior State Department officials 
have continued to brief the Gulf States on Iran negotiations.
    Secretary Hagel recently convened a meeting of defense 
ministers, the first time all six defense ministers have been 
together with the Secretary since 2008, and President Obama 
himself traveled to Saudi Arabia in March to reaffirm the U.S. 
commitment to the region.
    But just as our Gulf friends seek assurances from us, so do 
we from them. It is understandable that Gulf countries would 
have concerns over a potential nuclear deal with Iran. I have 
concerns over a potential nuclear deal with Iran and they are 
the ones living in Iran's neighborhood.
    Iran's penchant for meddling in Gulf States by stirring 
unrest in Shi'ite communities by supporting Hezbollah's 
activities in the region have exacerbated thousands of years of 
religious tensions and regional power struggles.
    This has only been compounded in recent years by the 
Iranian regime's unwavering support for Bashar al-Assad in 
Syria. Now, I recognize that there are those allies who were 
perhaps caught off guard by Western engagement with Iran.
    But it is just as concerning to the United States that 
Tehran and the Gulf seem to be warming relations despite this 
perceived anger at the P5+1 for pursuing nuclear negotiations.
    The emir of Kuwait will visit Iran May 31st. Reports last 
week indicated the Saudi foreign minister has invited his 
Iranian counterpart to visit Riyadh. All of this creates the 
unfortunate perception that despite our very real and serious 
mutual concern over a nuclear-armed Iran, our Gulf friends 
simply wish to see the United States solve the problem for 
them.
    And while we appreciate the tremendous economic support the 
Gulf has provided Egypt to help restore economic stability, the 
U.S. will still continue to ensure that we support an Egyptian 
Government that respects human rights and puts the country on a 
path toward real democracy.
    Over the past decade, we have increased security 
cooperation to unprecedented levels and the United States 
continues to balance these individual bilateral relationships 
and security needs with our cooperation and engagement with the 
GCC as a whole.
    We continue to cooperate on vital counter terrorism issues 
including preventing Hezbollah from acting in the region. Bold 
actions from our Gulf partners like declaring Hezbollah as a 
terrorist organization sends an important message to Iran and 
to its proxies but we need to see the same cooperation when it 
comes to countering all violent extremism, Sunni or Shi'ite.
    GCC countries rely heavily on the United States for their 
defense needs and we have strategic assets and defense 
agreements in every GCC country whether it is the Fifth Fleet 
stationed in Bahrain, Al Dhafra Joint Air Base in UAE, the Al 
Udeid based in Qatar, the over 13,000 troops in Kuwait.
    These strategic relationships are critical to the ability 
of the United States--to U.S. security interests and the 
ability to safeguard those interests in the region. But as with 
any friendship, there will be times when we disagree.
    This certainly doesn't mean that the U.S. has abandoned our 
interests in the Gulf and any suggestions to that end are 
simply false. But the United States must and will continue to 
speak out against human rights abuses of all kinds.
    We cannot turn a blind eye to the unequal treatment of 
women, discrimination against ethnic and religious minorities 
or foreign workers or violent suppression of dissent no matter 
where in the world it occurs and we will continue to speak out 
against those elements in or out of government that support any 
form of terrorism or extremist elements.
    Disagreements among GCC countries have also posed a 
challenge to addressing regional crises. It is no secret that 
the Gulf has been split over its approach to Syria and to the 
rise of the Muslim Brotherhood.
    Concerned over their own stability, Saudi Arabia and the 
UAE didn't appreciate Qatari support for the Muslim 
Brotherhood. With respect to Syria, our Gulf friends must use 
their resources to collectively strengthen and support vetted 
moderate opposition groups.
    Continuing to fracture the opposition will never result in 
a political solution that forces Assad out. I appreciate Kuwait 
fulfilling its humanitarian funding pledges and the UAE-built 
refugee camp in Jordan.
    But I would also urge all of our friends to use all of 
their great resources to fund the desperately lacking 
humanitarian response to the crisis in Syria. For the time 
being, things appear to be on the mend following the agreement 
reached in Riyadh last month with Qatar.
    However, Saudi Arabia, Bahrain and the UAE have yet to 
return their ambassadors to DOHA. I hope our panelists will 
address whether this band-aid can hold. As I stated earlier, 
just as our Gulf allies seek assurances from us, we seek 
assurances from them.
    Our partners should be assured that if an acceptable deal 
is ever reached with Iran it won't be a free pass to Iran to 
continue its dangerous and destabilizing behavior throughout 
the Middle East and throughout the world. And we should be 
assured that our friends will not continue to support dangerous 
actors throughout the region.
    To our witnesses, thank you for being here. I hope your 
testimonies will shed light on a couple of key issues. How deep 
is the mistrust between the U.S. and GCC over Iran?
    Can the GCC overcome its own internal disagreements to act 
in a manner that preserves regional security and perhaps, most 
broadly and most importantly, does the GCC view its long-term 
relationship with the United States as critical to regional 
stability as we do?
    And I thank you, Mr. Chairman, and yield back.
    Mr. Weber. Thank you, Mr. Deutch. Good comments. At this 
time, the Chair recognizes Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman and Ranking Member 
Deutch, for holding today's hearing about this very important 
issue and I would like to extend my gratitude to the witnesses 
for being with us today and for the testimony they are about to 
provide.
    For decades the United States has maintained important 
strategic relationships with member states of the Gulf 
Cooperation Council. These relationships are more vital today 
than ever and ensuring peace and stability are very worthy 
goals in any part of the world.
    But I remind the committee that nearly 20 percent of oil 
traded on any given day must pass through the Strait of Hormuz.
    GCC leaders have correctly identified Iran as a threat to 
stability and peace in the Gulf but a lack of a unified 
approach to address this threat is particularly disturbing.
    GCC leaders watch the events unfolding in Syria and Egypt 
but have all decided on different policies. This is an 
important region and it cannot be overstated how vital it is 
that we understand the intentions, goals and aspirations of GCC 
member states.
    So I look forward to hearing our panelists today providing 
clarification on how GCC member states work collectively, how 
they pursue their individual national interests and how United 
States strategic interests are affected by those decisions.
    And I thank you and I yield back.
    Mr. Weber. Thank you, sir.
    First, I am pleased to welcome Dr. David Weinberg, who is a 
senior fellow at the Foundation for Defense of Democracies 
where he focuses on the Gulf countries as well as energy, 
counter terrorism and human rights issues.
    Dr. Weinberg previously served as a professional staff 
member on the House Foreign Affairs Committee and has done 
research for the U.S. Commission on International Religious 
Freedom and the State Department's policy planning staff under 
the Bush administration.
    Perhaps I should note here that one of our colleagues--he 
is not here this morning, Mr. Connolly--was also a staffer and 
so apparently you got smart and left and he stayed.
    So, second, we want to welcome Mr. Simon Henderson, who is 
the Baker Fellow and director on the Gulf and Energy Policy 
program at the Washington Institute for Near East Policy, 
former journalist at the BBC and the Financial Times.
    Mr. Henderson has also worked as a consultant advising 
corporations and governments in the Arabian Gulf. And last but 
certainly not least, we welcome Ambassador Stephen Seche--am I 
saying that correctly? Seche--okay, thank you--who is a senior 
analyst at Dentons, an international law firm with extensive 
ties to the Middle East.
    Ambassador Seche spent 35 years as a U.S. Foreign Service 
Officer serving as the United States representative to Yemen 
from 2007 to 2010. Prior to his current position, he was Deputy 
Assistant Secretary in the Bureau of Near Eastern Affairs at 
the Department of State.
    He has also served as Charge d'Affaires at the U.S. Embassy 
in Damascus, Syria and as director of the Office for Egypt and 
Levant Affairs in Washington, DC.
    Gentlemen, welcome, and Dr. Weinberg, we will start with 
you.

   STATEMENT OF DAVID ANDREW WEINBERG, PH.D., SENIOR FELLOW, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Weinberg. Mr. Chairman, Ranking Member Deutch and 
distinguished members of the subcommittee, thank you on behalf 
of the Foundation for Defense of Democracies for the 
opportunity to discuss tensions in America's security 
relationship with members of the Gulf Cooperation Council.
    There is a pervasive sense among the GCC that America has 
abandoned its regional allies. This concern is primarily vis-a-
vis Iran, their main regional enemy, but it has been 
exacerbated by several of the following factors.
    In the last few years, the Gulf States have seen America 
becoming less dependent upon foreign oil and they wonder if 
this might reduce Washington's commitment to their security.
    In 2011, the Gulf States witnessed America supporting 
popular revolutions in places like Egypt and they wonder if we 
might abandon them like we did Mubarak or support the Muslim 
Brotherhood against established regimes.
    GCC states also blame Washington for letting Syria's Assad 
regime slaughter tens of thousands of Sunni civilians. They 
read America's decision not to enforce its red line on chemical 
weapons as an indication that our resolve may be lacking across 
the board.
    Although our military maintains approximately 35,000 
personnel in this region, these factors have caused the Gulf 
States to question the value of U.S. security guarantees 
against such threats as Iran.
    There is real truth to the claims by regional officials 
that they face ongoing acts of terrorism and subversion by 
Iran's Islamic Revolutionary Guard Corps.
    Officials have intercepted shiploads of sophisticated 
weapons evidently headed from the IRGC to radical Shi'ite 
militias that threaten Saudi Arabia, Yemen and Bahrain.
    The Saudis in particular have been targeted in terrorist 
attacks by Iran's global network including the 1996 Khobar 
Towers bombing and, as Chairman Ros-Lehtinen noted, a 2011 plot 
to assassinate the Saudi Ambassador here in Washington.
    Alleged Iranian espionage rings have recently been 
disrupted in Kuwait, Saudi Arabia and Bahrain and terrorist 
cells in Bahrain receiving IRGC training have reportedly built 
hundreds of improvised explosive devices.
    Like Israel, the GCC will never trust the terms of an 
accord over Iran's nuclear program until they see Tehran 
stopping its interventions in their neighborhood. In short, 
such activities are the prism through which they view Iran's 
broader intentions and relatedly America's commitment to come 
to their defense.
    Thus, if Washington is truly serious about reassuring its 
GCC allies, the government should insist on opening a new 
negotiation forum alongside the nuclear file for pressuring 
Iran to stop its radical regional activities and we should 
bring our Gulf allies to this table.
    Because there is a significant trust deficit on both sides 
of this alliance, the time has also come to appoint a special 
envoy who can regain the trust of the GCC's rulers. Meanwhile, 
the State Department should release the recent report it 
commissioned with taxpayer money documenting incitement in 
official Saudi textbooks and revoke the kingdom's indefinite 
waiver under the International Religious Freedom Act.
    On terrorism finance, U.S. officials should continue to 
press Kuwait and Qatar to stop providing a permissive 
jurisdiction for al-Qaeda fundraising. If DOHA and Kuwait City 
keep turning a blind eye, U.S. designations should possibly be 
broadened to include responsible foreign officials.
    Washington should encourage Bahrain's dialogue process and 
praise the crown prince and king for restarting that process in 
January. However, we should condemn abuses and violence when 
they take place, insist on security sector accountability and 
impose consequences for one or both sides, depending on their 
conduct, if negotiations fail to produce a deal before 
elections later this year.
    The United States should speak out at the highest levels 
for women's rights in the region, advocating for them to be 
permitted to drive in Saudi Arabia but also raising concerns 
about that country's oppressive and infantilising male 
guardianship system.
    Similarly, Washington should stand up more consistently for 
rights defenders under siege who often face long prison 
sentences for arbitrary charges such as offending the ruler or 
disrupting public order.
    Finally, the United States should help our Gulf allies 
address their skyrocketing energy consumption while ensuring 
our own lasting energy security. This requires the use of 
hydraulic fracturing at home when it is economically and 
environmentally viable, a national strategy for fuel choice in 
the transportation sector and increases in renewable energy to 
move away from fossil fuels in the longer term.
    Esteemed Members of Congress, I thank you for this 
opportunity to address you on the Gulf today and I eagerly look 
forward to your questions.
    [The prepared statement of Mr. Weinberg follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Weber. Thank you, Dr. Weinberg.
    Mr. Henderson.

 STATEMENT OF MR. SIMON HENDERSON, BAKER FELLOW AND DIRECTOR, 
 GULF AND ENERGY POLICY PROGRAM, THE WASHINGTON INSTITUTE FOR 
                        NEAR EAST POLICY

    Mr. Henderson. Mr. Chairman, Ranking Member Deutch and 
members of the subcommittee, thank you for the opportunity to 
testify before you today about such a critical and timely 
issue.
    Despite the prosperity of the GCC member states--Saudi 
Arabia, Kuwait, Bahrain, Qatar, the United Arab Emirates and 
Oman--I cannot recall a time when disunity in the alliance has 
been so obvious, prospects for reconciliation so poor and 
implications for the Middle East region and perhaps the rest of 
the world so bad.
    The GCC states have three features that distinguish them 
from most of the Arab world. They are on what they perceive as 
the front line of Sunni Islam adhered to by most of the Arab 
world against Shi'ite Islam, which has been led since the 1979 
Islamic revolution by non-Arab Persian Iran.
    They are all also oil-based economies and, although not 
democratic, their political systems are paternalistic rather 
than dictatorial. The GCC has been a bulwark against 
instability since it was established in 1981, less than a year 
after the start of the Iran-Iraq War.
    While the battles of that war raged, the GCC member states 
were collectively able to avoid being dragged into the 
conflict. They established themselves as a third power bloc in 
the region without having to align themselves too openly with 
fellow Arab leader Saddam Hussein against the threat of 
destabilization initiated by Iran's 1979 Islamic revolution.
    The recent events in the last few years of the so-called 
Arab Spring have had an impact on these countries and which 
have only been nation states for a few decades. Now their 
immediate political future, given an almost nuclear Iran, is 
uncertain.
    To make matters worse, the trend line of their greatest 
asset, their hydrocarbons, is bad. In 10 or, more likely, 20 
years an energy glut, comparatively speaking, is predicted for 
North America--that is, Canada, the U.S. and Mexico, considered 
collectively--which will likely hammer oil and natural gas 
prices.
    So even if the GCC's member states collectively have more 
than 30 percent of the world's oil and more than 20 percent of 
the world's natural gas, lower prices would probably spell 
disaster for their relatively undiversified economies.
    Further to this, there has opened in the last few months a 
wide schism essentially between Saudi Arabia, Bahrain and the 
UAE against Qatar, with the other two states of Kuwait and Oman 
standing on the sidelines.
    Apparently there had been a row about this last year, which 
was unreported, but had led to a peace agreement in late 
November 2013.
    But this year, Saudi Arabia, Bahrain and the UAE decided 
Qatar was not living up to its side of the bargain and 
announced the withdrawal of their ambassadors. It is hard for 
me to see a situation whereby this can be reconciled 
immediately and this is something which it is very important 
for the United States to work on particularly because it is not 
a one-off from this year and last year.
    But the division between Saudi Arabia, the UAE and Bahrain 
on one side and the rest of the GCC on the other mirrors pretty 
exactly what happened in 2011 when Saudi Arabian and UAE forces 
entered into Bahrain to help provide some calm in the 
disturbances there.
    An additional danger for the United States is the age of 
the rulers, particularly of Saudi Arabia where King Abdullah is 
in ill health and there appears to be what might well be a 
family feud going on in the house of Saud.
    I therefore recommend that the U.S. links with the GCC 
states and need to be worked on and a special envoy should be 
appointed and the U.S. should seek to engage as an honest 
broker in helping to overcome their disagreements.
    [The prepared statement of Mr. Henderson follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Weber. Ambassador Seche, you are up.

 STATEMENT OF THE HONORABLE STEPHEN A. SECHE, SENIOR ANALYST, 
   DENTONS US LLP (FORMER AMBASSADOR OF THE UNITED STATES TO 
                             YEMEN)

    Ambassador Seche. Mr. Chairman, Ranking Member Deutch, 
distinguished members of the subcommittee, I am very pleased to 
be able to take part in today's hearing, which offers a timely 
opportunity to assess U.S. relations with the Arab Gulf States 
and the nature of the relationships these nations maintain with 
each other.
    As Ranking Member Deutch has already noted, much has been 
made in recent months of the rift between Washington and some 
of our key Gulf allies over U.S. policies in the region. We 
know well what these policies are and each of the speakers this 
morning has identified them--in short, Syria, Iran and Egypt.
    These developments prompt two questions. Are the 
differences on these issues real and are they capable of 
inflicting permanent damage to our relationships with key Gulf 
partners. The answer to the first question is yes.
    Gulf anxiety about U.S. policies in the region is genuine 
and needs to be addressed. As for the extent of damage these 
differences can inflict, I think the answer has got to be very 
little if we tend to our relationships carefully, explain 
ourselves clearly and leave no doubt that our commitment to 
Gulf security and stability is as strong today as it has been 
since FDR met with Abdulaziz Ibn Saud nearly 70 years ago.
    If the administration can be faulted, I believe it is 
failing to respond promptly to the clear signals of impatience 
and concern issued by our GCC partners, particularly the 
Saudis, and for too often seeming to think that a public 
statement of support delivered by an administration spokesman 
standing in a briefing room in Washington will be sufficient to 
put Gulf anxieties to rest.
    That said, I also believe that the administration has made 
up for its slow start by assembling an impressive list of 
senior-level visitors to the region including the President 
himself and the Secretaries of Commerce, State and Defense.
    In fact, as has been noted, Defense Secretary Hagel has 
just convened a meeting of Gulf defense chiefs in Jeddah. This 
kind of personal diplomacy is essential and must be sustained. 
Secretary Hagel's message is that U.S. engagement with the Gulf 
States is intended to support and facilitate, not replace, 
stronger multilateral ties within the Gulf Cooperation Council.
    This, in my judgement, is absolutely the right direction 
for the U.S. to take. Our GCC allies expect to be treated like 
mature reliable partners. Let them therefore overcome internal 
differences and work together to ensure their collective 
security.
    It should not be construed as America walking away from its 
commitments to the security of the Gulf. We will maintain our 
forward military presence which includes 35,000 service men and 
women, our Navy's Fifth Fleet, advanced fighter aircraft and a 
wide array of missile defense capabilities.
    Nevertheless, internal divisions and rivalries within the 
GCC conspire against the kind of unified planning the 
administration has been encouraging. On the one hand, Saudi 
Arabia and the UAE, generally supported by Kuwait, are the most 
concerned about Muslim Brotherhood and Iranian intentions while 
Qatar and Oman define their interest somewhat differently and 
are less eager to accept Saudi dominance. Washington must be 
cognizant of these tensions and acknowledge that they are 
genuine and deep rooted while not accepting these differences 
as an excuse for the GCC states failing to take meaningful 
steps toward a coherent regional defense posture.
    With regard to our own policy differences with our Gulf 
partners, I would like to briefly address the two that I 
consider to be the principal sources of tension--nuclear 
negotiations with Iran and our policy toward the civil war in 
Syria.
    It is clear that the P5+1 negotiations have prompted Gulf 
States' fears that at the end of the day Tehran will be 
permitted to maintain some enrichment capacity and continue its 
destabilizing activities in the region. A couple of points on 
this.
    First, if a deal can be struck, and I think that is still a 
very big if, the outcome will do much more to impede Tehran's 
acquisition of a nuclear weapon than the alternative, a limited 
military strike with much less potential for negative 
consequences around the world.
    On the question of Iranian destabilizing behavior in the 
region, Secretary Hagel made it very clear that the P5 
negotiations will under no circumstances trade away regional 
security for concessions on Iran's nuclear program.
    Perhaps if the nuclear talks succeed a second expanded 
round can be convened immediately on the subject of Iran's 
relations with its neighbors, bringing the GCC to the table 
with P5+1.
    Syria is a more difficult issue and an affront to our 
collective conscience and increasingly home to a metastasizing 
violent extremist movement. Gulf States are unhappy because 
President Obama has declined to join them in supporting the 
armed opposition with lethal assistance and for failing to 
enforce his own red line when evidence of chemical weapons used 
by the Assad regime became clear.
    While we certainly have an interest in seeing Hezbollah's 
wings clipped in the Levant, I also believe as we address the 
situation in Syria we need to be very careful to avoid becoming 
a party to a campaign that has as much to do with sectarian 
dominance as it does good governance.
    My bottom line is this. For all their public displays of 
unhappiness with the United States, our Gulf partners know well 
that no other nation can or will ensure their security as we 
have done for the past 70 years.
    Our strategic interest in the Gulf will endure and with 
them our continued investment in the region's stability.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Ambassador Seche follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Weber. Thank you, Ambassador Seche.
    I am going to forego my chance to ask questions for just a 
minute and I am going to defer to the ranking member here.
    Mr. Deutch. Thanks. Thanks, Mr. Chairman. I would just like 
to focus on Iran. There have been suggestions that there should 
be a parallel track dealing with Iran's meddling in the region 
and support for terror.
    Ambassador, you talked about a follow-up round of 
negotiations dealing with Iran's relations with its neighbors. 
Is there any ideal resolution to the Iranian nuclear question 
that the Gulf States believe can be reached through this 
current round of negotiations?
    Dr. Weinberg, we will start with you.
    Mr. Weinberg. Sure. I think the comparison with Israel is 
illustrative to some extent here. I think the Israelis are 
primarily concerned about the nuclear issue as an existential 
threat when it comes to Iran.
    I think with the Gulf States they are also extremely 
concerned about the nuclear issue but the ways in which they 
view the nuclear issue are in part affected by how they view 
Iran's intentions related to regional subversion activities.
    And so I think as long as Iran continues to pursue these 
sorts of activities and the United States is not making it an 
issue on the negotiating track, I think they are going to have 
questions about how effectively and committedly the United 
States can enforce a nuclear deal with Iran.
    So I think having a dialogue with the Gulf States on this 
issue--on the nuclear issue is extremely essential to make sure 
that there aren't significant surprises on the negotiating 
track.
    They were very upset, for instance, when they discovered 
that the United States had been engaged in conversations with 
Oman in this regard. If the United States had perhaps maybe 
informed them that private talks were going on without giving a 
specific location so it couldn't be leaked and exposed fully 
that might have been more productive.
    But looking forward to the future, having senior officials 
involved in the nuclear file, such as Under Secretary of State 
for Political Affairs Wendy Sherman, go and brief officials in 
Riyadh and Abu Dhabi, for instance, is very constructive and 
very productive.
    But when it comes to trusting the nuclear deal, I cannot 
emphasize enough how important the IRGC element of it is for 
reassuring the trust that the Gulf States have in us.
    Mr. Deutch. Right, which I understand. So when we have 
seen, though, as I referred to earlier, you know, with all have 
the Gulf States engaging with Iran, are they just following our 
lead? Is it about proximity to Iran if the nuclear deal falls 
apart--they don't want to be left in a stalemate or a worse 
position? What is the calculation?
    Ambassador, let me just ask you what is the calculation 
between voicing displeasure with U.S. policy but simultaneously 
seeming to pursue closer relations with what has been referred 
to throughout here as their number-one enemy?
    Ambassador Seche. Sir, I think it is important to realize 
that each of the GCC countries maintains diplomatic relations 
with Iran. They all have Embassies in Tehran. They all deal 
with Iran in one level or another.
    They will continue to do so for their own self-interest. 
They are unhappy with the fact that we have maintained what 
appears to be a process that was going to relegitimize Iran and 
its ability to influence events in the region.
    However, they have also asked us not to negotiate----
    Mr. Deutch. I am sorry. They are concerned about our 
efforts to relegitimize Iran even as they continue to engage in 
diplomatic relations and seemingly have undertaken efforts to 
increase those relations with Iran just over the past few 
months.
    Ambassador Seche. Yes, sir, and there is a contradiction 
clearly inherent in this approach of theirs. But on the other 
hand, I am not sure the logic enters into an emotional argument 
they make which is the fact that unleashed Iranian influence 
will, again, become a juggernaut that is going to really 
destabilize their interest.
    Now, our position in the U.S. Government or the U.S. 
Government's position is that, frankly, the best way to ensure 
that Iran's behavior is normalized is to bring it to the table, 
ensure its reentrance back into the community of international 
nations as a legitimate power that has to have relations that 
are maintained as other nations do in the region.
    Mr. Deutch. All right. Mr. Henderson.
    Mr. Henderson. Yes. Thank you. The GCC states realize----
    Mr. Deutch. Is your microphone on?
    Mr. Henderson. I beg your pardon. The GCC states realize 
they live in that neighborhood. The United States doesn't. So 
they have to make their compromises all the way through with 
the other countries in their neighborhood, including Iran at 
this particular point.
    Their fear is that the diplomacy on the nuclear issue will 
not only recognize Iran as a quasi nuclear state if you allow 
it to hold on to enrichment technology, this is a better deal 
than the UAE had to negotiate with the United States in going 
for nuclear power plants.
    And they also fear that such a diplomatic agreement would 
anoint Iran as the hegemonic power in the Gulf area. They fear 
that this would lead to what I would call the Finlandization of 
the Gulf, comparing it with the state of Finland alongside the 
Soviet Union during the Cold War when at that time Finland was 
what I would--had to adopt a strategy of what I would call 
coerced diplomacy.
    Unfortunately, in yesterday's Washington Post David 
Ignatius also wrote an article about the Finland aspect of 
diplomacy in relation to Ukraine and quoting an unspecified 
State Department document which actually turned on its--to my 
mind, turned on the head--its head the definition of what 
Finlandization is all about.
    Mr. Deutch. I appreciate it and I am out of time. Thanks, 
Mr. Chairman.
    Mr. Weber. Thank you. And the Chair now recognizes Steve 
Chabot.
    Mr. Chabot. Yes. I was actually not here before the other 
gentlemen so I would be happy to----
    Mr. Weber. Adam, do you want to jump in?
    Mr. Kinzinger. Well, I appreciate it and thank you all. Let 
me just first off say thank you to the witnesses for being 
here. I very much appreciate the focus on this issue, which I 
don't think has gotten enough attention.
    Our alliance with the Gulf States has been very 
instrumental in us promoting peace and security across the 
region and I think, you know, the administration's unfortunate 
use of the term pivot has caused us as much damage as 
anything--the idea of pivoting away from the Middle East, which 
I think is a very epic mistake, and a pivot away from the Gulf 
even though in many cases that doesn't seem like the case.
    What has actually been shocking to me is as we look at what 
is going on in Iraq and Syria, Iran, Egypt and all over, I am 
hearing from our allies, you know, where is America--what has 
happened to American leadership.
    If you look at Europe, you see as America backs away from 
interests in Europe something has to fill that void. It is 
Russia. You look at Asia--it is China. And you look at the 
Middle East and you see two things--chaos, terrorism and Iran 
filling the lack of American leadership.
    Mr. Henderson, you mentioned the 1-2-3 agreement with the 
United Arab Emirates and a similar situation exists in South 
Korea. America holds this commitment of a nuclear-free Korean 
Peninsula even though we know that in North Korea they have 
nuclear weapons. But we like to hold the idea that we are 
committed to a nuclear-free Korean Peninsula.
    We said that we are committed to a nuclear-free Middle East 
region so the UAE very graciously agreed to no enrichment. And 
so you find out that our allies get no enrichment and our 
enemies potentially get the right to enrich uranium.
    So it begs the question to our allies, okay, being close to 
the United States gets you what versus being far from the 
United States and a thorn in its side gets you what.
    And so it is very concerning, and you look at Syria.
    There is a hundred and--at least 150,000 people who have 
died in Syria. You have a President that put out a red line as 
America has held to for generations that the use of chemical 
weapons will have no place in a civilized world, and his 
backing off and failure to enforce the red line in Syria has 
led me in my discussions--I think many members of the committee 
here who have talked with diplomats and heads of states of 
other countries--to say that was one of the biggest, most 
terrible turning points in America's foreign policy. That is 
the point at which your enemies no longer feared you and your 
allies no longer trust you.
    So I have just a few questions. Mr. Henderson, you talked a 
little bit about the coercion and you also talked about coerced 
neutrality. How could the neutrality of the GCC states hurt our 
ability to stop Iran from attaining its nuclear weapon and at 
what point do you think our allies would take on this position 
and this calculation?
    Mr. Henderson. It is an excellent question and what I see 
as likely to happen amongst the GCC states, particularly the 
cases of Saudi Arabia and Kuwait, is that they will go their 
own way and quite what that way is isn't terribly clear but 
there are signals on what that way is.
    At the end of the last month, Saudi Arabia held a huge 
military exercise culminating in a parade at a military base in 
the north of the country which had over 130,000 men on parade.
    It was the largest exercise and largest parade they have 
ever had and the Saudis also took the opportunity to display at 
that parade two of the Chinese East Wind missiles, which are 
usually referred to in American terms as medium range or long 
range.
    And the important thing is that they can get from Saudi 
Arabia to Tehran and this was a clear signal to Tehran that 
Saudi Arabia is unhappy with the situation. It was also or 
should have been a clear signal to Washington, DC, that Saudi 
Arabia was unhappy with the situation.
    Mr. Kinzinger. Well, I was just going to say, because my 
time is running out and I know many people have questions, if 
this was a--this is a very bipartisan committee.
    That is one of the reasons I love serving on this 
committee. If this was a Republican administration I would be 
screaming just as loudly about the decline of American 
leadership around the globe.
    I had one more question but I don't have time to ask it. 
But I do want to make the point again that I made, which is I 
think the failure of the United States of America to enforce 
the red line in Syria, and today, even when we hear about more 
chlorine gas attacks and barrel bomb attacks and everything has 
been one of the biggest foreign policy blunders not just of 
this administration but probably over the last couple of 
decades.
    Mr. Chabot, thank you, and Mr. Chairman, I will yield back.
    Mr. Weber. Thank you, Mr. Kinzinger. Now the Chair 
recognizes Mr. Schneider.
    Mr. Schneider. Thank you, Mr. Chairman, and I am pleased to 
follow on the questions of my colleague from Illinois.
    Mr. Henderson, you used the terminology the GCC states live 
in the neighborhood and the United States doesn't and that the 
sense that we may be turning away or pivoting from that is 
raising levels of concern.
    I know you touched a bit on this in your testimonies but 
can you be a little more specific of what we can do to 
reinforce and demonstrate our commitment to the region, the 
fact that we understand it is a crucial strategically important 
region and also in the same vein things we might do differently 
or stop doing to reinforce the confidence in the region?
    Mr. Henderson. Thank you. I am tempted to say to try to 
wind the clock back. I recognize I cannot do that. But one of 
the significant mistakes to my mind of what the administration 
has done has, at least from a GCC point of view, is they--the 
GCC thinks Washington, DC, misunderstood the Arab Spring and 
thought the so-called Arab Spring was a great thing and this 
was the way forward.
    The GCC states considered that Iran was the major threat. 
They regarded their own political systems, which I have 
described as patriarchal rather than dictatorial, as being, in 
a sense, post-Arab Spring anyway. They have already got that 
improved level of politics.
    One can debate that but you can sense what I mean. And they 
were furious that U.S. support for President Mubarak in Egypt 
flipped from firm support to he must go within 3 weeks, leaving 
them thinking, hell, if that happens in Egypt what is going to 
happen with us if the pressure mounts on us.
    A further anxiety from a GCC perspective, certainly from 
Saudi Arabia, probably Bahrain and the Emirates, is that they 
saw the overthrow of Bashar al-Assad's regime in Damascus as 
being important not only for its own purposes because he was a 
dreadful dictator but also because this would give a strategic 
setback to Syria's main ally, Iran.
    And the absence of that overthrow and, indeed, the sense 
that Bashar is in there for the way ahead has infuriated the 
GCC and feels that that strategic setback hasn't been delivered 
and in fact it's been a strategic plus for Iran.
    So what do they do now or what can we do is we have to give 
the GCC a sense that we better understand their position. In 
fact, I don't actually believe the Obama administration 
recognizes that they are at fault in their understanding.
    The logic of their diplomacy on the Iran nuclear issue is 
sort of self-fulfilling, and as I have said before I think this 
needs to be corrected because you are heading into a situation 
whereby there will be a neutralized Gulf but it won't be 
neutral in the favor of the United States or, indeed, the West.
    Mr. Schneider. Right, and I will share that what you are 
saying and the sense from the Gulf States is consistent with 
everything I have heard talking to people who have relations in 
Chicago, where I am from.
    There is that great concern. It is not new and it is not, I 
don't feel, being addressed sufficiently to do that. Dr. 
Weinberg, it looks like you wanted to say something as well.
    Mr. Weinberg. If I could just jump in quickly. I think some 
constructive things the United States can do or is doing 
include on Secretary Hagel's visit he presented concrete 
specific steps for increasing military partnerships in areas 
such as maritime security, missile security.
    I think that is a constructive measure. I think the extent 
to which the United States is willing to contemplate a 
partially increased role related to Syria will see the Gulf 
States willing to appreciate that but also foot some of the 
bill.
    As I noted before, the importance of potentially appointing 
an envoy to regain trust with the GCC States could be 
constructive as well as keeping the focus on the IRGC. But, 
additionally, as these Gulf States engage to some extent with 
Iran, as Ranking Member Deutch drew particular attention to, I 
think it is important for the United States, just as they 
insist from us on an eye into what is going on in the nuclear 
talks, I think we should insist from them to know what they are 
talking about with Iran.
    I think this is important to prevent buck passing and 
freelancing on the part of some of these Gulf States but also 
to ensure that there are no surprises that we are confronted 
with.
    For instance, after the Khobar bombing that occurred in 
Saudi Arabia and has been tied to Iranian intelligence, the 
United States felt that we had extreme difficulty getting 
access to some of the suspects in this crime in Saudi Arabia 
and it seemed as though, in retrospect, that the Saudi 
authorities had cut their own separate deal with Iran on some 
security issues at the time in a limited tactical way and they 
were slow rolling the investigation.
    So in order to prevent something like that, I think it is 
important for the United States to insist on a clear eye on 
what is actually going on in these dialogue talks as some of 
the Gulf States tactically engage with Iran. Thank you.
    Mr. Schneider. Thank you. I see I am over time so thank 
you, Mr. Chairman. I wish we could go more into the no deal 
better than a bad deal. It is a crucial issue with Iran--the 
textbooks. I thank the witnesses for being here and I yield 
back.
    Mr. Weber. Thank you, Mr. Schneider. The Chair now 
recognizes the gentleman from California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Can any of you gentlemen think of a time when there was 
tranquility in the Gulf? No, I don't--I can't. I have been 
thinking about maybe when the Ottoman Empire dominated the 
whole region but even then there was Lawrence of Arabia and all 
sorts of House of Saud fighting the Turks at that time. Mr. 
Henderson, you were going to say that there was a time period?
    Mr. Henderson. Well, you are asking a historical question 
and history is a matter of personal opinion. But there was a 
tranquility in the Gulf in the sense of no war at the time when 
the Shah of Iran was the leader of Iran and his demise in the 
1979 Islamic revolution is year zero in my calculation.
    Mr. Rohrabacher. Of course, you realize the shah did--
became the shah after he--we overthrew a democratically-elected 
President--a guy named Mossadegh, I seem to remember his name 
was.
    Mr. Henderson. Well, actually he was the shah before and 
Mossadegh, who was elected, actually tried to undermine the 
shah, which is the historical spin on that one.
    Mr. Rohrabacher. Right. We Americans sort of like that idea 
of getting the king out of our lives sometimes, you know.
    Mr. Henderson. Well, you have got six kings or quasi kings 
in the GCC states.
    Mr. Rohrabacher. Right.
    Mr. Henderson. And it is a challenge to have good relations 
with GCC states if you take that point of view.
    Mr. Rohrabacher. Let me--let me ask another historical 
question. Now, about that time the Ba'athist movement was 
basically emerging as a force in that part of the world and at 
the same time you had--historically my read back there was that 
is about the same time as well as the creation of the Muslim 
Brotherhood.
    Can we say that there was a competition in that time period 
between whether or not that region would go with the Ba'athists 
because there were Ba'athist Parties in all of these countries, 
I believe, versus radical Islam and radical Islam as one?
    Mr. Henderson. Dr. Weinberg has, I think, a degree in--a 
Ph.D. in history and so perhaps he would want to come in on 
this one. But essentially the events of the 1950s, which was 
the rise of the Ba'ath Party, were a struggle between old style 
monarchial regimes.
    That was the end of Egypt. Jordan's throne was under 
threat. Iraq's ruling royal got dragged through the streets.
    Mr. Rohrabacher. He was assassinated. Right.
    Mr. Henderson. But it was also the time when the Muslim 
Brotherhood developed as an underground movement. But the main 
struggle at that time was--in the 1950s was between 
nationalists, who were essentially secular, and communists.
    Mr. Rohrabacher. Yes. I am actually thinking more of the 
ideological fight that goes on and in the end I believe 
determines what direction history will take. I have just--you 
know, we are in for some big changes in the world and one of 
the big changes is the United States is going to become oil and 
gas independent.
    In fact, we will start exporting oil and gas within a 
decade. This would tend to eliminate that mandatory tie that we 
have had to being involved in the Gulf. I notice now and for 
your testimonies today that it has been noted that China is now 
becoming a major weapons supplier to the Gulf--rockets and 
missiles to various elements.
    Do you expect China to emerge now in some sort of 
relationship with radical Islam as we see it in Iran as well 
as, I might add, Saudi Arabia is governed by what I would 
consider a radical Islamic philosophy?
    Mr. Henderson. The China role is an interesting question 
but it is watch this space--you know, find out what the hell is 
going on in Beijing. I wouldn't have thought that China will 
head in the direction of identifying itself with the radical 
Islam.
    It has problems with the Uyghurs, who are Islamists in 
western China, and I can't imagine that Beijing thinks that 
this is the way forward. China's history in the Gulf area has a 
cynical aspect to it.
    During the 1980 to '88 Iran-Iraq war, China was supplying 
ammunition to both sides, presumably because they made more 
money that way, but as much as this notion of increasing 
American energy independence becomes an important factor, I 
don't think it makes it simple for the United States to 
withdraw from the Gulf area because energy is very much a 
universal world, particularly related to price.
    Mr. Rohrabacher. Well, thank you very much, Mr. Chairman, 
for giving me a chance to ask questions and I just would end my 
part of the--the world is changing at a very fast rate and I 
would believe that our situation with oil and gas will have 
major repercussions as to how much the American people are 
willing to commit to being involved in a arena of turmoil in 
the Gulf. I am sorry. I don't have much time--any time left. 
Thank you very much.
    Mr. Weber. Thank you, sir. The Chair recognizes Lois 
Frankel. I understand that we are probably going to call votes 
here just any minute. So the gentlelady from Florida.
    Ms. Frankel. Thank you very much. Mr. Chair, first, I would 
like to welcome Edona Krasniqi from Kosovo, whose specialty is 
child protection and she is here as a Hope Fellow to learn how 
to improve her and advance her advocacy.
    So welcome. Thank you for being here. I hope you have a 
good stay here in the United States.
    Mr. Weber. Could you have her stand up? Is she back over 
here?
    Ms. Frankel. Yes.
    Mr. Weber. Okay. Welcome.
    Ms. Frankel. Welcome. Thank you, gentlemen, for being here. 
I wanted to ask a couple questions on this nuclear--the 
potential of a nuclear Iran. First is if Iran should get a 
nuclear weapon would you expect there would be a proliferation 
and which of the Gulf countries do you think would be next to 
try to obtain a weapon?
    Mr. Henderson. Saudi Arabia would go to Pakistan tomorrow 
and ask for one and Pakistan would probably give them more than 
one.
    Ambassador Seche. I would certainly concur with Mr. 
Henderson's view that the Saudis are quite inclined to act and 
quickly in the event that Iran were to acquire a nuclear 
weapon.
    I think that is also why Saudi Arabia can understand that 
the nuclear P5+1 negotiations are the best alternative to 
keeping that from happening.
    Ms. Frankel. Apparently, Iran's President Rouhani was 
quoted today saying that a deal over Iran's nuclear program is 
``very likely by July 20 deadline.''
    Do you know or do you have an opinion as to whether his 
version of the deal he is talking about would be one that Saudi 
Arabia and the GCC can live with?
    Mr. Henderson. I fear that President Rouhani's version of a 
deal is something which Washington, DC, can live with. I am 
almost certain that the GCC cannot live with it and 
particularly Saudi Arabia, Bahrain, the UAE, probably Kuwait as 
well.
    Ms. Frankel. Right. And could you just expand on that?
    Mr. Henderson. Because these countries feel that too many 
concessions are being made to Iran and their interests aren't 
being taken into account and it will leave Iran with its 
nuclear technology and nuclear industry intact, which will give 
it a quasi nuclear weapons status of a country which has always 
professed that it has no interest in nuclear weapons but most 
people have never believed that statement.
    Ms. Frankel. So which specific concessions are they opposed 
to?
    Mr. Henderson. They don't want Iran to have--well, I don't 
think they want Iran to have any centrifuges and the idea that 
there is a small number of centrifuges which is a reasonable 
number--they can't believe it is a reasonable number.
    And they fear also that the deal will not require Iran to 
come clean on what they have done in the past and which is 
called possible military dimensions in the jargon of their 
program.
    And with--if Iran doesn't come clean on that part it is 
naive and essentially allows them to retain the military 
nuclear weapons program both in structure and in personnel.
    Ms. Frankel. Thank you, Mr. Chair. And oh, Madam Chair, you 
are back. Good to see you.
    Ms. Ros-Lehtinen. Thank you, Ms. Frankel. It is a delight 
to see you.
    Ms. Frankel. I yield back.
    Ms. Ros-Lehtinen. Thank you very much. And now we are so 
pleased to recognize Mr. Chabot and thank you, Mr. Weber, for 
doing a wonderful job. Thank you. Mr. Chabot.
    Mr. Chabot. Thank you very much, Madam Chair.
    Mr. Kinzinger had asked--actually made kind of a--some 
statements, most of which I agreed with, and then asked some 
questions and so I will leave out most of the statements that I 
would make because I agree with him about sort of the power 
vacuum around the world, at least the perception of one by the 
United States.
    And I will just note that when there is a power vacuum when 
the U.S. is less engaged around the world bad actors have a 
tendency to fill in there and we are seeing that in South China 
Sea with China and the Middle East with Iran and now in Europe, 
particularly in Ukraine with Russia and Putin acting up.
    And my question would be this, first of all, and I got here 
a little late so this may have already been--you may have 
already talked about this. But Saudi Arabia sort of shocked, I 
think, the administration and the world to some degree when 
they turned down, you know, membership on the Security Council 
of the U.N. and a lot of people thought it was kind of a slap 
in the face at the U.S. for not backing the Gulf States up and 
our traditional allies in the region. Would anyone like to 
comment on that, what they think about that particular issue?
    Ambassador Seche. Perhaps I will begin and then turn to my 
colleagues. But I do think there was a strong signal sent by 
the Saudis last fall of their unhappiness and this was one of 
the issues that I think we moved slowly to respond to. We saw 
the----
    Mr. Chabot. An unhappiness with what in particular?
    Ambassador Seche. Well, fundamentally, with our lack of 
involvement in Syria and supporting the opposition.
    Mr. Chabot. The United States lack of involvement. The 
United States lack of involvement.
    Ambassador Seche. United States involvement in supporting 
the armed opposition. I think P5+1. I also think that our 
support for the popular revolt in Egypt.
    All of these combined to create a serious sense of unease 
and the Saudis were simply demonstrating the extent to which 
that unease had captured them and I think that we needed at 
that point to send someone immediately to Riyadh and sit down 
and have a face to face, and we did not.
    And I think, again, we were slow to react but I think we 
finally began to understand the depth of this unhappiness and 
the fact that it was beginning to tear at the fabric of the 
relations that we have and we consider to be so important.
    Mr. Chabot. And with respect to--you mentioned Egypt--there 
is also a perception in that region of the world, particularly 
in Egypt but I think throughout the Gulf States, that not only 
is less resolve and less commitment and less involvement and 
less engagement from the United States but there is even a 
perception that not only did we not support sort of the 
government but that we are pro-Muslim Brotherhood.
    I mean, I am not saying that is true but I am saying is 
that not kind of the perception amongst a lot of folks--public 
opinion in that part of the world?
    Ambassador Seche. Well, there is a perception but I think 
the perception may be somewhat missing the point. The fact of 
the matter is the Muslim Brotherhood government came to power 
in Egypt by virtue of what everyone agrees was probably the 
most open and fair election in Egyptian history.
    No one was content with the fact that a Muslim Brotherhood 
government started to turn against the very democratic process 
that put it in power and I think this demonstrates the 
immaturity to some extent of these movements.
    They are able to use the democratic process to their 
advantage but are still so afraid of it that they begin to 
consolidate power in very anti-democratic ways once they have 
an opportunity to do so.
    Mr. Chabot. Okay. Would any of the other--yes, Dr. 
Weinberg.
    Mr. Weinberg. If I could jump in there. I think with regard 
to your first question first, it is also important to note that 
the Saudi leadership gave up an opportunity to address the U.N. 
General Assembly this fall, which is an extremely unusual 
choice.
    Related to that decision and the U.N. Security Council seat 
decision, the Saudi official line pointed to a whole range of 
silly points like oh, well, we are mainly upset about the 
Palestinian issue or we are mainly upset about Rohingya Muslims 
in Burma--issues on which the Saudi leadership had been doing 
basically nothing in the months before that.
    I mean, these are not silly issues per se in foreign policy 
but they--you know, they weren't a core element of Saudi 
initiatives at the time. I think it is worth noting that they 
came within mere days of President Obama's telephone call with 
President Rouhani in Iran.
    So I think Iran was a part of that, I think Syria was a 
part of that and I think frustration with the U.N. apparatus 
and the international community for not doing more had 
something to do with that. But I think also another element is 
King Abdullah's temper in Saudi Arabia.
    I think we saw this also in the withdrawal of the Saudi 
Ambassador from DOHA in Qatar and I think it points again to 
the importance of personal relations in this region where power 
is so centralized with a few individuals. The fact that 
President Obama went to Saudi Arabia in March to look the king 
face to face I think was a very positive development.
    However, I think the fact that they spent all of about 2 
hours together is a sign of how frayed those relationships are, 
pointing to the importance of having somebody out there, 
perhaps an envoy, to rebuild trust with these leaders.
    With regard to the Muslim Brotherhood, as you noted, I 
think there is deep, deep mistrust of the Muslim Brotherhood 
from the leaderships in the United Arab Emirates and in Saudi 
Arabia.
    I actually just came back from Abu Dhabi and Dubai and I 
heard people describing their views of the Muslim Brotherhood 
compared to the Comintern, Hitler and Mussolini. I think there 
is real fear that this organization in the long term could pose 
a threat to established regimes there.
    But at the same time, Qatar does not in any way seem 
prepared to revisit their extensive broad-reaching sponsorship 
of the Muslim Brotherhood throughout the broader Middle East. 
And so I think it is reasonable for the United States to expect 
this GCC spat to linger on and I think we need to adapt to 
that.
    Mr. Chabot. Thank you.
    Ms. Ros-Lehtinen. Thank you so much. Thank you, Mr. Chabot. 
Mr. Weber.
    Mr. Weber. Thank you, Madam Chair. A question for all of 
you all. Well, I have got all kinds of questions but they will 
call voting. Does the GCC endure if through this should the 
United States come in and say look, okay, we understand your 
view our foreign policy as faltering but we would like to come 
back in a very comprehensive way now, strong, come out and say 
look, we would like you all to renounce all forms of terrorism 
and list the terrorist organizations and then we will kick back 
in, and it will take an administration, quite frankly, in my 
opinion that would say no more negotiations on Iran getting 
nuclear weapons, and we will talk a little bit about that in a 
minute, Mr. Ambassador.
    But if the United States came in and said we want you all 
to become more cohesive, stronger than ever but here is the 
steps it is going to take, is that a viable option for us to 
put on the table to try to really get them to renounce 
terrorism, list the terrorist organizations and to get on the 
same page? Or is that just pie in the sky?
    Ambassador Seche. Yes. If I may, sir, I think it is going 
to be very difficult at this point to see the very disparate 
interests of Saudi Arabia and the UAE come to terms with 
Qatar's behavior. I think there is a sense that Qatar, even 
having had agreed to some sense of a modus vivendi with their 
neighbors, is probably still not persuaded.
    Mr. Weber. So if they were alienated that the rest of them 
actually came to that table and Qatar thought they were going 
to be left out--pressure on them?
    Ambassador Seche. Qatar has enjoyed very much its role as 
the maverick in the Gulf and I think it sees itself as now 
punching way above its weight and having an opportunity to 
exercise influence and it does, certainly through Al Jazeera, 
certainly through its enormous wealth that it has and they 
demonstrated around the world that it can buy its way into a 
lot of countries and societies.
    So I am not sure how easily, and I think the Gulf States 
may be trying to test a young emir recently empowered to see if 
he has the mettle that his father had or if he will cave under 
that kind of pressure.
    Mr. Weber. Also, let me follow up on that, Ambassador. You 
said in earlier comments that Iran needed to be back in the 
international neighborhood. But I was curious when you said 
that. Is that devoid of any nuclear capability? You didn't 
really qualify that, but they needed to be made a player again. 
Explain that.
    Ambassador Seche. Well, I certainly think the terms for 
that would have to be that Iran does give up any opportunity to 
develop a nuclear weapon, that there is a success----
    Mr. Weber. Including enrichment?
    Ambassador Seche. Well, I don't think they will give up 
enrichment. I think Iran is absolutely intent upon 
maintaining----
    Mr. Weber. We are too far down that path is what you are 
saying.
    Ambassador Seche. Right. And I think there is probably an 
inherent unfairness in the fact that this is going to, if it 
succeeds, allow Iran to have some enrichment capacity and 
others have noted that the UAE, for example, forsake that 
option.
    But I do believe that this deal--it is not this deal or a 
better deal. It is this deal or no deal, and this is the one 
moment we have a chance to put something on the table that will 
guarantee if it is done properly and if it is airtight and very 
verifiable----
    Mr. Weber. Okay.
    Ambassador Seche [continuing]. That there will not be a 
nuclear weapon.
    Mr. Weber. Now a question for all three and I have got 2 
minutes left. Arab Spring--is that going to reemerge, revive or 
are we going to see that in the GCC? What is the likelihood?
    Mr. Henderson. Because of the different political systems 
and the inbuilt notion of consensus in the albeit quasi 
monarchy systems they have, I don't think you are going to see 
the Arab Spring in the sense that you saw it in Tunisia where 
there was a dictator or Egypt where there was a dictator or 
even Yemen.
    But what I am watching and what I expect we will see is 
that the degree to which the people of the GCC countries, the 
citizens of the GCC countries which are essentially over 
subsidized and cosseted are accept--continue to accept the 
system despite its benefits----
    Mr. Weber. Not as unhappy as some of the others.
    Mr. Henderson. They are very conscious of the fact they 
live in a region where there is--things are happening. When it 
is turmoil they don't like it.
    But when they want to tweet and they want to do social 
networking and all this sort of thing these are things which 
the old style governments aren't--don't have built-in 
mechanisms to know how to cope with.
    Mr. Weber. Okay. Final question, and I think as you, 
Ambassador, said, Hagel is going over there negotiating, you 
said, maybe an enhanced role for the United States in Syria. 
Explain.
    Ambassador Seche. Well, I don't know that I said that but I 
do believe the United States is reexamining our role in Syria 
at the moment and I think that there is enough pressure 
building----
    Mr. Weber. Maybe it was Dr. Weinberg. An enhanced role in 
Syria--Chuck Hagel--military role and what does that look like.
    Mr. Weinberg. I don't think that was specifically tied to 
Secretary of Defense Hagel's visit to the region, which I think 
was mainly focused on defense partnerships in the Gulf region 
per se.
    But I do think the U.S. administration has acknowledged 
that there is some need for a reevaluation of its policy in 
Syria. Now, as to whether that involves a fundamental 
reevaluation of some of the shortcomings of that policy or 
whether it is incremental, I think has yet to be seen.
    But there is some reason to believe that the administration 
may be increasing its program for training members of the 
Syrian opposition that are vetted and moderate and, for 
instance, there was a recent David Ignatius column which 
suggested that Qatar has been paying the difference for the 
increase in this training program.
    Mr. Weber. I saw that.
    Mr. Weinberg. And that the Saudis are providing U.S.-made 
anti-tank TOW missiles to vetted members of the Syrian 
opposition. So I think to the extent to which the United States 
is willing to explore increasing its support to the right 
people in Syria, I think there is hunger in the Gulf States for 
that and I think they will support us in that and appreciate it 
in our broader relationship.
    Mr. Weber. Okay.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Weber.
    Mr. Weber. Madam Chair, thank you.
    Ms. Ros-Lehtinen. Thank you. The U.S. has over 35,000 
service men and women in the Gulf nations, giving us a rather 
robust military presence, and we have an important intelligence 
presence in the region as well, making our relations with these 
countries strategically important.
    What does the administration need to do in order to repair, 
to expand, to strengthen those relationships in order to ensure 
our national security interests are being best served and also 
to strengthen our relationships with the GCC countries that 
want a closer relationship with us in the United States?
    Mr. Henderson. I think the United States has to better 
explain what it means to have these military forces and in the 
Gulf area and because the notion of using force, which is after 
all what a military is all about, has--seems to have been 
redefined by Washington, DC, in recent years.
    It is not as if you have to go to war but you have to at 
least give the impression you will actually use the military 
and from a GCC perspective they, while grateful for the U.S. 
military there, they are uncertain whether the strength of this 
military, the deterrence of this military, is recognized any 
longer by troublemakers such as Iran.
    Ms. Ros-Lehtinen. And I know that you want to comment but 
let me just give this question out. If the United States and 
the P5+1 reach an agreement with Iran that still allows Iran to 
enrich its own uranium, what does our relationship with the GCC 
countries look like the next day?
    Mr. Weinberg. Well, I think several of the members on this 
panel have highlighted the potential risk of Saudi Arabia 
pursuing a nuclear weapon if they believe that Iran's nuclear 
program is not going to be suitably restricted.
    I think Mr. Henderson here was a little modest in that he 
didn't mention that he is published. He has personally been 
told by A.Q. Khan, the father of the Pakistani nuclear program 
who also was linked to nuclear weapons information sharing and 
sales to several rogue countries, has visited Saudi Arabia 
dozens of times, so he claims, and I think the linkages between 
the Pakistani and Saudi military establishments including in 
this arena are extremely close and need to be a cause of 
concern.
    When it comes to the UAE's perspective, I think there will 
be considerable resentment about the fact that they signed an 
agreement forgoing the opportunity to enrich when Iran, on the 
other side of the Gulf, retains it.
    So I think it comes down to the fact that as, I think, 
Congressman Schneider noted and I noted in my written 
testimony, a bad deal is worse than no deal. Even with the 
administration----
    Ms. Ros-Lehtinen. Thank you. Let me just go over here. We 
are out of time.
    Ambassador Seche. If I may for a moment, ma'am, I don't 
believe that a deal--a P5+1 deal with Tehran it allows them to 
have minimal enrichment--10,000 to 12,000 centrifuges--a 
breakout time of 4 to 6 months is going to send the Saudis to 
Pakistan to acquire a nuclear weapon.
    I believe they would do that--if Iran gets a nuclear weapon 
they would respond in kind. But I also believe they know that 
the alternative, which is a limited military strike, is going 
to have unintended consequences across the region that are 
going to be far more dangerous to the well being of the Gulf 
States than a deal which is verifiable and comprehensive with 
the Iranians.
    Ms. Ros-Lehtinen. Thank you so much, and I know that we 
have lots more to say and there is zero time remaining on the 
clock for our votes. Thank you, gentlemen, for excellent 
testimony. Thank you to all of our members and to the audience.
    And with that, the subcommittee is adjourned. Thank you.
    [Whereupon, at 10:49 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                Material Submitted for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
